 




          Federal Trade Commission
    SEMIANNUAL REPORT T O C O N G R E S S
          Office of Inspector General




          April 1, 2011 – September 30, 2011

                  Report No. 46




                          
 




                                                         In 1938, Michael Lantz won the competition to
                                                         design two sculptures for the apex building, home
                                                         of the Federal Trade Commission In Washington,
                                                         D.C.   The widely publicized “Apex Competition“
                                                         was the largest American sculpture competition
                                                         ever held, receiving almost five hundred models
                                                         from more than two hundred artists.


                                                         Lantz submitted small models of his designs, each
                                                         showing a heroic figure straining to control a
                                                         powerful horse.   the final, seventeen foot‐long
                                                         statues were completed in 1942 and installed
                                                         outside the eastern entrance of the Federal
                                                         Trade Commission building, where they can be
                                                         seen today




    The Federal Trade Commission (FTC) is an independent agency of the United States government.
    Established in 1914 by the Federal Trade Commission Act (15 U.S.C. §41-58, as amended). The
    FTC has two critical goals: protecting consumers and maintaining competition. The FTC’s mission
    is to prevent business practices that are anticompetitive or deceptive or unfair to consumers; to
    enhance informed consumer choices and public understanding of the competitive process; and to
    accomplish these missions without unduly burdening legitimate business activity.

    The FTC’s mission is carried out by three bureaus: the Bureau of Consumer Protection, the Bureau
    of Competition, and the Bureau of Economics. Work is aided by oﬃces including the Oﬃce of the
    General Counsel, the Oﬃce of Inspector General, the Oﬃce of International Aﬀairs, the Oﬃce of
    the Executive Director, and seven regional oﬃces. The FTC is headed by a commission composed
    of ﬁve commissioners, nominated by the President and conﬁrmed by the Senate, each serving a
    seven-year term.

    The FTC seeks to ensure that the nation’s markets are competitive, eﬃcient and free from undue
    restrictions. The FTC also seeks to improve the operations of the marketplace by ending unfair and
    deceptive practices with emphasis on those practices that might unreasonably restrict or inhibit the
    free exercise of informed choice by consumers. The FTC relies on economic analysis to support its
    law enforcement eﬀorts and to contribute to the economic policy deliberations of Congress, the
    Executive Branch and the public.




    This issue of our Semiannual report to Congress features decorative elements from the Federal Trade Commission build‐
    ing 600 Pennsylvania Ave. N.W. Washington D.C.
     
    Cover: “American Eagles” One of two limestone reliefs created by artist Sidney Waugh in 1938, located on the side of the
    FTC building.




                                         SEMIANNUAL REPORT TO CONGRESS ‐ I
 




    Photo above: The Federal Trade Commission building 600 Pennsylvania ave.
    NW, Washington DC.




                                          II
 




                                          UNITED STATES OF AMERICA

                                  FEDERAL TRADE COMMISSION
                                            WASHINGTON, D.C. 20580



    OFFICE OF INSPECTOR GENERAL




    October 31, 2011




    A MESSAGE FROM THE INSPECTOR GENERAL

    On behalf of the Federal Trade Commission Oﬃce of Inspector General (OIG), I am pleased to
    present our Semiannual Report to Congress for the period ended September 30, 2011.

    During the semiannual period, we issued the management letter for the FY 2010 ﬁnancial
    statements, an audit on the FTC warehouse, a management advisory on Federal Express account
    controls, and a survey on the recording procedures for the Hart-Scott-Rodino fees. In addition,
    we issued the Management Challenges for inclusion in the FTC FY 2011 Performance and
    Accountability Report. Our reports can be found at www.ftc.gov/oig.

    The OIG processed 73 consumer inquiries and allegations of possible wrongdoing. We opened one
    new investigation and closed two criminal investigations. We closed 14 complaints during the current
    reporting period with no action and another nine complaints were closed following a preliminary
    inquiry. We referred 47 complaints to appropriate FTC program oﬃces and one to another federal
    agency. We provided assistance to another OIG in an ongoing investigation.

    As in the past, FTC management has been responsive in working with the OIG to resolve all proposed
    recommendations. I appreciate management’s support and look forward to working with management
    in our ongoing eﬀorts to promote economy and eﬃciency in agency programs.




    John M. Seeba
    Inspector General




                                     SEMIANNUAL REPORT TO CONGRESS ‐ III
 




    Above: this relief entitled “Agriculture“ was created by artist Concetta
    Scaravaglione in 1938.

    It is one of four limestone reliefs above the entrance doors of the Federal
    Trade commission building 600 Pennsylvania ave. NW, Washington DC.




                                            IV
 




    Table of Contents

     A MESSAGE FROM THE INSPECTOR GENERAL —--——————–————–——- III

     INTRODUCTION AND DEFINITIONS —————-———————————–——– 1

     AUDITS AND RELATED ACTIVITIES —————–————–--——————–—-— 3

           Completed Audits and Reports————————————————––-             3

           Audit Resolution and Corrective Actions ———————————–—-— 7

           Audit Activities Planned or In-Progress ————————————–—— 7

           Other Potential Reviews —————————————————–——— 8

     INVESTIGATIVE ACTIVITIES —————————————————————–--– 8

           Investigative Summary————————————————————–-– 9

           Investigations Closed————————————————————–—– 9

           Matters Referred for Prosecution———————————————–—— 10

     OTHER ACTIVITIES————————————————————–———–—— 10

          Liaison with Other Agencies ————————————————–——— 10

          Activities Within the Inspector General Community ————————–— 11

          Signiﬁcant Management Decisions ———————————–-————–- 12

          Access to Information —————————————————–——–-—                12

          Review of Legislation ——————————————————–—-–—— 12

          Results of Peer Review —————————————————–—                   12

     TABLE : R EPORTS WITH RECOMMENDATIONS ON WHICH CORRECTIVE
     ACTION HAS NOT BEEN COMPLETED ———————————————— 13

     TABLE : INSPECTOR GENERAL ISSUED REPORTS WITH Q UESTIONED COSTS 15

     TABLE : INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS
     THAT F UNDS BE PUT TO B ETTER USE ———————————————              16

     TABLE : S UMMARY OF INSPECTOR GENERAL REPORTING REQUIREMENTS     17


     CONTACTING THE OFFICE OF INSPECTOR GENERAL —————————              18




                         SEMIANNUAL REPORT TO CONGRESS ‐ V
 




    INTRODUCTION              AND     DEFINITIONS




    THE      MISSION OF THE             OFFICE        OF I NSPECTOR          GENERAL         IS TO
    PROMOTE ECONOMY, EFFICIENCY , AND EFFECTIVENESS BY
    DETECTING AND PREVENTING WASTE, FRAUD, AND ABUSE.


    In compliance with the Inspector General Act Amendments of 1988 (5 U.S.C. app.), the Oﬃce
    of Inspector General (OIG) was established in 1989, as an independent and objective
    organization within the FTC.

    Under the Inspector General Act, the OIG is responsible for conducting audits and
    investigations relating to the programs and operations of the FTC. Audits are conducted for the
    purpose of ﬁnding and preventing fraud, waste and abuse and to promote economy, eﬃciency
    and eﬀectiveness within the agency. OIG investigations seek out facts related to allegations of
    wrongdoing on the part of FTC employees and individuals or entities having contracts with or
    obtaining beneﬁts from the agency.

    Individuals who wish to ﬁle a complaint about the business practices of a particular company or
    entity, or allegations of identity theft, deceptive advertising practices or consumer fraud should
    ﬁle a complaint with the FTC Bureau of Consumer Protection.

    Complaints to the OIG from the public or from an FTC employee can be made anonymously.
    The identity of an FTC employee who reports waste or wrongdoing to the OIG will be
    protected from disclosure consistent with provisions of the Inspector General Act. In addition,
    the Inspector General Act and the Whistleblower Protection Act prohibit reprisals against
    employees for complaining to or cooperating with the OIG.

    The OIG is required by law to prepare a semiannual report summarizing the activities of the
    Oﬃce during the immediately preceding six-month period. The report is sent to the FTC
    Chairman, the President of the Senate, the Speaker of the House and FTC’s appropriating and
    authorizing committees. This dual reporting requirement facilitates and ensures the
    independence of the Oﬃce. The OIG has a budget of $1,030,100 for ﬁscal year 2011.




                                                  1
 




    WE PERFORM THE FOLLOWING SERVICES:


    ATTESTATIONS          involve examining, reviewing, or applying agreed-upon procedures on a
    subject matter, or an assertion about a subject matter. Attestations can have a broad range of
    ﬁnancial or nonﬁnancial objectives as the FTC’s compliance with speciﬁc laws and regulations,
    validation of performance against performance measures; or reasonableness of cost.


    PERFORMANCE AUDITS                   address the eﬃciency, eﬀectiveness, and economy of the
    FTC’s programs, activities, and functions; provide information to responsible parties to improve
    public accountability; facilitate oversight and decision making; and initiate corrective actions as
    needed.


    FINANCIAL AUDITS             provide an independent assessment of whether ﬁnancial statements
    are presented fairly in accordance with generally accepted accounting principles. Reporting on
    ﬁnancial audits in accordance with Government Auditing Standards also includes reports on
    internal control, and compliance with provisions of laws, regulations, and contracts as they relate
    to ﬁnancial transactions, systems and processes.


    INVESTIGATIONS are conducted based on alleged or suspected fraud, waste, abuse or gross
    mismanagement, employee and contractor misconduct, and criminal and civil violations of law
    that have an impact on FTC’s programs and operations. The OIG refers matters to the U.S.
    Department of Justice whenever the OIG has reasonable grounds to believe there has been a
    violation of federal criminal law. The OIG also identiﬁes fraud indicators and recommends
    measures to management to improve the agency’s ability to protect itself against fraud and other
    wrongdoing.




                                    SEMIANNUAL REPORT TO CONGRESS ‐ 2
 




    AUDITS AND RELATED ACTIVITIES

    COMPLETED AUDITS AND REPORTS

                                                                 increased review procedures over uncollectable
    During this period, we issued four reports: the
                                                                    redress fund judgments
    management letter for the FY 2010 ﬁnancial
    statements, an audit on the FTC warehouse, a
                                                                 improved review of open obligations and
    management advisory on controls over the Federal
                                                                    controls over accrued accounts payable
    Express account, and a survey of procedures to
    process Hart-Scott-Rodino Fees.                              improved procedures over contract close out
                                                                    and undelivered orders
    AR 11-001A - Management Letter for Audited
    Financial Statements for FY 2010                            These current year recommendations concerned
                                                                    necessary controls to ensure:
    In November 2010, the OIG issued the
    Management          Letter   for     Audited    Financial    improved documentation in procurement ﬁles
    Statements for FY 2010. This report provides an                 for contracts issued from the Federal Supply
    evaluation on FTC’s internal controls and                       Schedules
    compliance with selected laws and regulations for
                                                                 preparation of a fraud risk assessment to
    the period ended September 30, 2010.
                                                                    supplement         the        FTC’s          risk   assessment
    The issues presented in the management letter are               performed for the Federal Managers’ Financial
    not considered material weaknesses or signiﬁcant                Integrity Act (FMFIA)
    deﬁciencies    in     relation     to   FTC’s   ﬁnancial
                                                                 development         of         a    reconciliation      process
    statements. Nonetheless, these issues concerned
                                                                    between      commitments                 and        obligations
    necessary controls, and we believe that they
                                                                    processed by FTC, and those recorded by the
    warrant management’s attention and action.
                                                                    ﬁnancial system service provider
    These prior years recommendations concerned
                                                                We       made      eight              recommendations           for
      necessary controls to ensure:
                                                                strengthening      FTC’s              internal      controls   and
     a more timely and eﬃcient reporting function             accounting procedures.                 In its response, FTC
      from the ﬁnancial system service provider                 concurred       with        all       recommendations          and
                                                                described actions it had taken to address each
     complete documentation in procurement ﬁles
                                                                issue.
      for   service      disabled      veteran-owned   small
      businesses




                                                                3
 


     

        AR 11-004 – Audit of the FTC Warehouse

        To support the administrative needs of the three                Improve      accountability      by     independent
        Washington D.C. oﬃce locations, the FTC leases                    veriﬁcation of inventory located at the
        a 22,000 square foot warehouse in Landover, MD                    warehouse
        that is used to store an inventory of oﬃce
                                                                        Improve utilization of warehouse shelving
        supplies, furniture, equipment, publications and
                                                                          and space
        building materials. The objective of our audit was
        to determine the cost eﬀectiveness of maintaining
                                                                        Consider leasing a smaller size warehouse
        the current size warehouse.
                                                                          based on reduced storage needs from the
                                                                          above actions
        Because there was a lack of information
        concerning the cost and age of items contained in
        the warehouse, we were unable to determine the
        cost eﬀectiveness of maintaining the warehouse.
        However, while we found that there was suﬃcient
        justiﬁcation for having a warehouse, we noted
        several opportunities for improving operations,
        reducing costs and the potential for reducing the
        square footage needed to support current FTC
        operations.

        We     believe      there     are    opportunities   for
        improvement in the following areas:

           Discard     old        and     obsolete   furniture,
             equipment, publications and supplies

           Reduce handling of paper and oﬃce supplies
             through alternate means of acquisition and
             distribution
                                                                         Image Above: FTC Landover Warehouse. Aisle view
           Improve tracking of all items stored in                     of leather chairs and other furniture.

             warehouse including computers and other IT
             equipment




                                               SEMIANNUAL REPORT TO CONGRESS ‐ 4
 




    Management agreed in principle with our ﬁndings         illegal activities. Some of the illegal activities were
    and has planned, or initiated corrective actions on     related to the abuse of the purchase card (i.e., theft
    all recommendations. Management has also                of Government property), while others were
    established a timetable for completion of the           abusing the FedEx shipping account for personal
    recommendations within the next six months.             purposes.
    Their plans include disposing of or recycling
                                                            As noted in our 2005 investigative alert issued to
    excess, aged or expired items in the warehouse. In
                                                            management (see “Weak Internal Controls Over
    addition, actions were taken to bar code
                                                            Use of Federal Express Mail Services”), the FTC
    accountable   IT   inventory,   assess   additional
                                                            had not established suﬃcient controls to prevent
    inventory software for tracking all supplies and
                                                            abuse of the FedEx Shipping Account.
    inventory items stored at the warehouse, and
    conduct a physical inventory of all items in the
    warehouse. Finally, management directed the
    warehouse contractor to consolidate items in the
    warehouse for more eﬃcient utilization of space.

    Management has indicated that they have assessed
    and concluded that the need for the current sized
    warehouse is justiﬁed. While the OIG understands
    management’s position, we continue to believe
    that the future need of the warehouse will be
    signiﬁcantly reduced or possibly eliminated when
    the FTC moves to other oﬃce space, especially if
    additional storage space can be acquired at that
    location. Management should continue to assess its
    storage needs semi-annually to determine if it is
    cost eﬀective to eliminate or move to a smaller
    warehouse.                                              Since that report was issued, the OIG found that
                                                            the FTC had not implemented any additional
    MA 11-16 – Lack of Controls over Federal
                                                            controls to prevent or minimize abuse of the
    Express Shipping Account
                                                            FedEx Shipping Account. While the cost of
                                                            individual shipments using FedEx is generally low,
    As a result of a recent investigation on purchase
                                                            the FTC has spent $335,000 for over 31,000
    card abuse, we found several employees and
                                                            shipments during the past two calendar years
    contractor personnel using the FTC’s Federal
                                                            (2009-2010).
    Express (FedEx) shipping account for personal and




                                                        5
 




    Because FedEx is a low cost service (per
    transaction) and the cost to implement controls
    was thought to be signiﬁcant, the FTC has
    essentially relied on the honesty and integrity of
    contractors and employees to refrain from
    misuse of the FedEx shipping account. Since
    nearly anyone in the agency can send a letter or
    package by FedEx at their discretion, a system of
    controls needs to be implemented to deter and
    prevent further abuse of the service.

    We recommended that the agency establish
    eﬀective, yet eﬃcient program controls to
    provide assurances that the program is used only
    for its intended purposes.

    These vulnerabilities are commonplace in
    various organizations and FedEx has created a
                                                               OIG Survey of Systems and Processes Used
    means for its clientele to prevent theft of its
                                                               to Record Hart-Scott-Rodino Filing Fees
    shipping services. The company has expressed
    interest in assisting the FTC in eliminating these         The Hart-Scott-Rodino Act established the
    abuses by FTC staﬀ and would provide this                  federal premerger notiﬁcation program, which
    service at no cost to the agency.                          provides the FTC and the Department of
                                                               Justice (DOJ) with information about large
    We     made      three     recommendations            to
                                                               mergers and acquisitions before they occur. The
    management.      Management            concurred      in
                                                               FTC administers the premerger notiﬁcation
    principle    with    all     the       ﬁndings      and
                                                               program, collects the fees, and divides the ﬁling
    recommendations      in      the      report.     Where
                                                               fees evenly between the FTC and DOJ. In ﬁscal
    management did not speciﬁcally agree to
                                                               years (FY) 2010 and 2009, the FTC collected
    implement our recommendations, they oﬀered
                                                               $145.7 million and $84.3 million respectively in
    alternatives that satisfy the intent of the
                                                               HSR premerger ﬁling fees. The amounts
    recommendation      and      result     in      improved
                                                               designated for DOJ were $72.9 million for FY
    controls over the FedEx program.                     We
                                                               2010 and $42.2 million for FY 2009.
    appreciate management’s working with the OIG
    to establish an eﬀective internal control process.




                                          SEMIANNUAL REPORT TO CONGRESS ‐ 6
 




    The OIG recently completed a survey of                  Corrective Actions in Progress
    procedures used by the FTC to record and
                                                            As of the end of this reporting period, FTC
    reconcile the Hart-Scott-Rodino (HSR) fees. Our
                                                            management had not completed action on
    survey    found     that    the   FTC’s     Financial
                                                            measures taken to implement all of the OIG
    Management Oﬃce (FMO) had:
                                                            ﬁndings and recommendations. Table 1 shows all
       documented its procedures for reconciling          recommendations open on which corrective
         HSR fees                                           actions are still in progress.

       adequately designed its procedures to monitor
         accurate and timely recording of HSR
                                                            AUDIT ACTIVITIES PLANNED OR IN-PROGRESS
         transactions

                                                            The OIG continues its work on the following
       consistently followed its procedures
                                                            audit related activities:
       adequate segregation of duties between FMO
                                                                 Audit of the FTC Financial Statements for
         and the Premerger Notiﬁcation Oﬃce and
                                                                  FY 2011-A ﬁnancial statement audit is
       maintained appropriate documentation of its              required annually under the Accountability of
         control procedures and activities                        Tax Dollars Act of 2002. We contract out the
                                                                  audit to an independent public accountant to
                                                                  perform this work. The OIG serves as the
    The results of the survey indicate that no further
                                                                  Contracting           Oﬃcer’s           Technical
    work is warranted by the OIG. Consequently, we
                                                                  Representative    (COTR)         and     provides
    made no recommendations to FMO as a result of
                                                                  oversight on the contract. The purpose of the
    our survey.
                                                                  audit is to express an opinion on the ﬁnancial
    AUDIT RESOLUTION AND CORRECTIVE                               statements of the Federal Trade Commission
    ACTIONS                                                       for the ﬁscal year ending September 30, 2011.
                                                                  The audit will also test the internal controls
    Audit Resolution                                              over ﬁnancial reporting and assess compliance
                                                                  with selected laws and regulations.          The
    As of the end of this reporting period, all OIG
                                                                  audited ﬁnancial statements are included in
    audit recommendations for reports issued in prior
                                                                  the   ﬁnancial    section   of    the     agency’s
    periods have been resolved. That is, management
                                                                  Performance and Accountability Report to be
    and the OIG have reached agreement on what
                                                                  issued in November 2011.
    actions need to be taken.




                                                            7
 




       Review of FTC FISMA Implementation for                      OTHER POTENTIAL REVIEWS
         FY 2011 - The Federal Information Security
                                                                     During the upcoming year we will also conduct
         Management Act of 2002 (FISMA) requires
                                                                     research on the following program functions to
         an annual evaluation of each agency’s
                                                                     determine the need for further audit work:
         information security program and practices
         to   determine          their   eﬀectiveness.         The
                                                                            Inventory controls over accountable property
         evaluation shall be performed by the
         Inspector General or by an independent                             Review of case management
         external auditor, as determined by the
                                                                            BCP process of retrieving assets
         Inspector       General.        To    assist    us     in
         conducting       this     review,     we       hire    an
         independent consultant to perform this
         work. The OIG acts as the COTR and                          INVESTIGATIVE ACTIVITIES
         performs oversight during the execution of
                                                                     The Inspector General is authorized by the IG
         this contract. The review includes evaluating
                                                                     Act to receive and investigate allegations of
         the adequacy of the FTC’s computer
                                                                     employee misconduct as well as fraud, waste and
         security program and practices for its major
                                                                     abuse occurring within FTC programs and
         systems.
                                                                     operations. Matters of possible wrongdoing are
       Peer Review of the Postal Regulatory                        referred to the OIG in the form of allegations or
         Commission Oﬃce of Inspector General -                      complaints from a variety of sources, including
         The OIG is scheduled to perform an                          FTC employees, other government agencies and
         external peer review of the audit activities of             the general public. Reported incidents of possible
         the Postal Regulatory Commission (PRC)                      fraud, waste and abuse can give rise to
         OIG for the period ending September 30,                     administrative, civil or criminal investigations.
         2011. The objective of this mandatory
         external peer review is to determine
                                                                           
         whether, for the period under review, the
         PRC OIG audit organization’s system of
         quality control was suitably designed to
         provide     a      reasonable         assurance        of
         conforming         to       Generally          Accepted
         Government Auditing Standards (GAGAS)
         and to determine whether the audit
         organization complied with its quality
         control system.




                                              SEMIANNUAL REPORT TO CONGRESS ‐ 8
 




    INVESTIGATIVE SUMMARY                                  Following is a summary of the OIG’s
                                                           investigative activities for the six-month period
    During this reporting period, the OIG received         ending September 30, 2011:
    73 consumer complaints and other inquiries and
    reports of possible wrongdoing. Of the 73
    complaints, 47 involved issues that fall under the
    jurisdiction   of   FTC     program    components
    (identity theft, credit repair, etc.) and not the              Cases pending as of 3/31/11       6
    OIG. These matters were referred to the
                                                                       PLUS: New Cases                1
    appropriate FTC component for disposition.

    Of the remaining complaints, the OIG opened                        Less: Cases Closed            (2)
    one new investigation and closed 14 complaints
    with no further OIG action. Nine of the                       Cases Pending as of 09/30/11        5
    remaining      complaints    were     closed   after
    completion of a preliminary inquiry to determine
    whether we should open a full investigation. The
    remaining referral resulted in our assisting another   INVESTIGATIONS CLOSED
    OIG with an ongoing criminal investigation.
    One complaint is still the subject of ongoing OIG      During this reporting period, the OIG closed two
    activity.                                              investigations.    The ﬁrst investigation, opened
                                                           during an earlier reporting period, focused on
    In addition to the complaints described above, the
                                                           allegations regarding a senior executive’s misuse of
    OIG received 144 complaints from individuals
                                                           position     and    misappropriation     of     FTC
    who reported fraudulent misuse of the name of
                                                           information technology (IT) property for personal
    the FTC and/or impersonations of FTC staﬀ as
                                                           use.
    part of a widespread lottery/sweepstakes scam.
    These consumer complaints are tracked by our           Our investigation conﬁrmed the allegations that
    oﬃce in our ongoing work with a multi-agency           the subject retained FTC laptops and a loaner
    task force responsible for investigating these         “demo” laptop from a manufacturer and an FTC
    matters. However, the volume of these complaints       smartphone for personal and family use.
    is not included in the statistical information
    above.




                                                       9
 




    The subject also misused their executive           guilty to theft of Government property.
    authority to purchase a high-end computer for      During this reporting period the FTC
    personal use. During the pendency of our           employee was sentenced to 18 months in
    investigation, the subject left the agency.        prison, three years of probation and ordered to
    Because the OIG successfully recovered the         pay restitution in the amount of $218,000. In
    property and the employee left the FTC, we         the second prosecution, the former employee
    made no referral to management (as there was       of an FTC contractor pled guilty to theft of
    no administrative action to be taken against the   Government property during this reporting
    employee). We closed the investigation.            period. That individual will be sentenced in
                                                       the next reporting period.
    The second investigation was opened and
    closed during this reporting period.        We     A matter referred to DOJ during a previous
    opened an investigation based on allegations       reporting period remains pending at DOJ
    that an employee was misusing             agency   (Oﬃce of Public Integrity), with no ﬁnal
    information technology resources in connection     action to date.
    with a for-proﬁt book writing business. Our
    investigation conﬁrmed that the employee was
    using agency IT resources in violation of agency
    policy.                                            OTHER ACTIVITIES

    The employee acknowledged the use of the use       LIAISON WITH OTHER AGENCIES
    of FTC equipment to complete manuscript
                                                       In conducting criminal investigations, the OIG
    edits and print portions of manuscripts. We
                                                       has sought assistance from, and worked jointly
    referred   the   administrative    investigative
                                                       with other law enforcement agencies including:
    ﬁndings to management for further disciplinary
                                                       Department of Homeland Security, Federal
    action.
                                                       Protective Service, United States Postal Service,
                                                       Federal Bureau of Investigation, U.S. Postal
    MATTERS REFERRED FOR PROSECUTION
                                                       Inspection Service, U.S. Secret Service, U.S.
                                                       Marshals Service, Internal Revenue Service,
    During the preceding reporting period, the
                                                       U.S. Capitol Police, as well as state agencies
    OIG referred two matters to the Department
                                                       and local law enforcement agencies.
    of Justice (DOJ) for consideration of potential
    criminal action. The United States Attorney
    for the District of Columbia prosecuted both
    individuals. The former FTC employee pled




                                      SEMIANNUAL REPORT TO CONGRESS ‐ 10
 




    ACTIVITIES WITHIN THE INSPECTOR                     are   re-designing    training    programs      for
    GENERAL COMMUNITY
                                                        investigators engaged in undercover operations
                                                        and for advanced interviewing techniques. The
    The FTC IG is an active participant in the
                                                        training programs are available through the
    Council of the Inspectors General on Integrity
                                                        Inspector   General     Criminal      Investigator
    and Eﬃciency (CIGIE), a council of inspectors
                                                        Academy in conjunction with the Federal Law
    general that promotes collaboration on integrity,
                                                        Enforcement Training Center.
    economy, and eﬃciency issues that transcend
    individual agencies. The IG is the vice-chair of    Our Lead Investigator also participates in the
    the Audit Committee of the CIGIE and is a           Metro Area Fraud Task Force (MAFTF)
    member of the Legislative and Information           headed by the Secret Service. This task force is
    Technology Committees.                              made up of local, state, and Federal law
                                                        enforcement professionals, who work together
    The FTC Inspector General is also the chair of
                                                        to identify victims and suspects in an
    the audit committee overseeing the audit of the
                                                        collaborative eﬀort to address and investigate
    Department of Defense Inspector General’s
                                                        various crimes.
    ﬁnancial statements. In this capacity, the IG
    along with two other senior government              In addition, our Lead Investigator is actively
    oﬃcials provide oversight on the DOD IG’s           participating on a DOJ-led multi-agency task
    ﬁnancial statement audit.                           force addressing crimes related to lottery and
                                                        sweepstakes scams targeting the elderly. The
    The OIG Audit Manager participates regularly
                                                        task force was able to compile enough evidence
    in the monthly meeting of the Financial
                                                        to support the prosecution of ﬁve individuals,
    Statement Audit Network, and meetings of the
                                                        including the owner of a Costa Rican call
    Federal    Audit       Executive    Committee
                                                        center   (“boilerroom”),    two    telemarketers
    Information Technology committee.
                                                        working out of the oﬀshore call center and two
    Our IG Counsel participates regularly in the        “runners” operating in the United States.
    monthly meeting of the Council of Counsel to        These individuals are responsible for defrauding
    the Inspectors General (CCIG), as well as           consumers out of millions of dollars.
    contributes to the legal discourse within that
                                                        This task force continues to receive consumer
    Council on matters that are germane to the
                                                        complaints from many sources, including
    entire IG community.
                                                        Lloyds of London, the Department of the
    Our Lead Investigator is actively participating     Treasury,   the   FTC      Consumer     Response
    in two OIG-community working groups that            Center, the general public and other sources.




                                                   11
 




    We are participating in this task force because the      that access to required information, records or
    fraudsters often identify themselves as employees        assistance has been unreasonably refused, or
    of the agency. The OIG has posted a scam alert           otherwise has not been provided. A summary of
    on the OIG website at http://www.ftc.gov/oig.            each report submitted to the agency head in
                                                             compliance with Section 6(b)(2) must be
    Our Lead Investigator was a presenter at a May 2-
                                                             provided in the semiannual report in accordance
    4, 2011, Lottery, Prize and Sweepstakes Fraud
                                                             with Section 5(a)(5) of the Act.
    conference in Chicago, IL, hosted by the FTC
    Chicago Regional Oﬃce. She spoke on lottery              During this reporting period, the OIG did not
    and sweepstakes fraud and ﬁelded questions as            encounter any problems in obtaining assistance
    part of a panel.                                         or access to agency records. Consequently, no
                                                             report was issued by the IG to the agency head
                                                             pursuant to Section 6(b)(2) of the IG Act.

    SIGNIFICANT MANAGEMENT DECISIONS

    Section 5(a)(12) of the Inspector General Act
                                                             REVIEW OF LEGISLATION
    requires that if the IG disagrees with any
    signiﬁcant       management      decision,       such    Section 4(a)(2) of the IG Act authorizes the IG
    disagreement must be reported in the semiannual          to review and comment on proposed legislation
    report to Congress. Further, Section 5(a)(11) of         or regulations relating to the agency or, upon
    the   Act    requires    that   any   decision     by    request, aﬀecting the operations of the OIG.
    management to change its response to a                   During this reporting period, the OIG reviewed
    signiﬁcant resolved audit ﬁnding must also be            no legislation.
    disclosed in the semiannual report. For this
    reporting period there were no signiﬁcant ﬁnal
    management decisions made with which the
                                                             RESULTS OF PEER REVIEW
    OIG disagreed, and management did not revise
    any    earlier     decisions    on    OIG        audit   The most recent peer review of the FTC Oﬃce of
    recommendations.                                         Inspector    General        audit   operations   was
                                                             conducted by the Smithsonian Institution (SI)
    ACCESS TO INFORMATION
                                                             Oﬃce of Inspector General. The report, issued
                                                             December 2009, contained no recommendations
    The IG is to be provided with ready access to all
                                                             and the FTC OIG received a pass rating, the
    agency records, information, or assistance when
                                                             highest available rating.
    conducting an investigation or audit. Section 6
    (b)(2) of the IG Act requires the IG to report to
    the agency head, without delay, if the IG believes




                                     SEMIANNUAL REPORT TO CONGRESS ‐ 12
 




    Table 1: Reports with Recommendations on which
    Corrective Action has not been Completed


     Report No.   Report Date Report Title             Summary of Recommendations




                                                       HRMO to assess the need for oﬀering training for
                              Administration of        new timekeepers and to revise the FTC
     AR 08‐002    September   Leave                    Administrative Manual to reflect updated OPM
                     2008                              regulations on military leave




                                                       OCIO should accelerate its eﬀorts to revise and
                              FY 2008 Review of FTC
                  September                            update its security policies, procedures, and
     AR 08‐004                Implementation of
                     2008                              guidelines; accelerate its contingency plan eﬀorts;
                              FISMA
                                                       and improve its POA&M monitoring process




                                                       FMO should work with its vendor to ensure all
                                                       necessary reports can be generated in a timely
                              Financial Statement
                   February                            manner and not require extensive reconciliations
    AR 09‐001A                Management Letter FY
                     2009                              by the FMO. None of these recommendations rise
                              2008
                                                       to the level of significant financial control
                                                       weaknesses




                                                       ACFO should develop a training program
                                                       specifically for FTC staﬀ assigned COTR duties
                                                       managing contracts with expert witness and
                  September   COTR Oversight of        consultants, and should work with the HRMO to
     AR 09‐002
                     2009     Sole Source Contracts    define FTC COTR duties and include those duties
                                                       in COTR staﬀ performance plans




                                                      13
 




    Table 1 (continued): Reports with Recommendations on
    which Corrective Action has not been Completed

     Report No.    Report    Report Title            Summary of Recommendations

                                                     FMO should improve its documentation of contract
                                                     awards to service disabled veteran‐owned small
                                                     businesses; improve its procedures for review of
                             Financial Statement     uncollectable redress judgments; strengthen
                    May
     AR 10‐001A              Management Letter FY    procedures to ensure proper recording of accruals;
                    2010
                             2009                    and improve closing procedures of deobligations on
                                                     completed contracts. None of these
                                                     recommendations rise to the level of significant
                                                     financial control weaknesses

                                                     OCIO should develop criteria for evaluating
                             FY 2009 Review of FTC
                  December                           contractor C&A documentation; and improve
     AR 10‐002               Implementation of
                    2009                             oversight of its security scanning contractor to
                             FISMA
                                                     ensure compliance with NIST SP 800‐53A



                                                     FMO should implement procedures to review the

                   August    Audit of the FTC        Central Billing Account for unauthorized charges;
     AR 10‐003                                       track reimbursements of non‐Federal sponsored
                    2010     Travel Program
                                                     travel; reconcile cardholders to the HRMO active
                                                     employee list; and establish a system to track and
                                                     document the required travel training

                                                     OCIO should implement policies and procedures to
                                                     address deficiencies identified during the
                                                     implementation of its IT infrastructure
                             FY 2010 Review of FTC modernization; continue eﬀorts to collect metrics
                  November
     AR 11‐002               Implementation of       regarding system and security performance;
                    2010
                             FISMA                   improve continuous monitoring assessments;
                                                     provide more definitive security requirements in
                                                     contracts; and develop contingency plans for the IT
                                                     infrastructure and supported applications


                                                     The FTC should establish a system to track required
                             Follow‐Up Review of
                   January                           training; minimize the use of convenience checks
     AR‐11‐003               the FTC Purchase Card
                    2011                             whenever possible; and better define and control
                             Program
                                                     certain overseas travel services.




                              SEMIANNUAL REPORT TO CONGRESS ‐ 14
 




    Table 2: Inspector General Issued Reports with
    Questioned Costs

                                                                      Dollar Value


                                                              Questioned    Unsupported
                                                     Number
                                                                Costs          Costs

          For which no management decision has
     A. been made by the commencement of               0          0              0
          the reporting period

          Which were issued during the
     B.                                                0          0              0
          reporting period



          Subtotals (A+B)                              0          0              0



          For which a management decision was
     C.                                                0          0              0
          made during the reporting period



          (i) dollar value of the disallowed costs     0          0              0



          (ii) dollar value of the cost not
                                                       0          0              0
          disallowed

          For which no management decision
     D. was made by the end of the reporting           0          0              0
          period

          Reports for which no management
     E.   decision was made within six months          0          0              0
          of issuance




                                               15
 

     



        Table 3: Inspector General Issued Reports with                                     
                                                                                                   

     
        Recommendations that funds be put to Better Use                                    
                                                                                                   

                                                                                               
                                                                                                       
                                                                                 Dollar
                                                                        Number                 
                                                                                 Value
                                                                                                       

                                                                                               
              For which no management decision has been made by                                        
         A.                                                               0        0
              the commencement of the reporting period                                         
                                                                                                       
         B Which were issued during this reporting period                 0        0

              For which a management decision was made during the
         C.                                                               0        0
              reporting period


              (i) dollar value of recommendations that were agreed to
                                                                          0        0
              by management

              ‐ based on proposed management actions                      0        0

              ‐ based on proposed legislative action                      0        0

              (ii) dollar value of recommendations that were not
                                                                          0        0
              agreed to by management


              For which no management decision has been made by
         D.                                                               0        0
              the end of the reporting period


              Reports for which no management decision was made
         E.                                                               0        0
              within six months of issuance




                                   SEMIANNUAL REPORT TO CONGRESS ‐ 16
 




    Table 4: Summary of Inspector General Reporting
    Requirements


        IG ACT
                        Reporting Requirement                                      Page(s)
       Reference

     Section 4(a)(2) Review of Legislation and regulations                           12


     Section 5(a)(l) Significant problems, abuses and deficiencies                   3‐6


                        Recommendations with respect to significant problems,
     Section 5(a)(2)                                                                 3‐6
                        abuses and deficiencies

                        Prior significant recommendations on which corrective
     Section 5(a)(3)                                                                 7
                        actions have not been made

     Section 5(a)(4) Matters referred to prosecutive authorities                     10

     Section 5(a)(5) Summary of instances where information was refused              12

                        List of audit reports by subject matter, showing dollar
     Section 5(a)(6)                                                                15‐16
                        value of questioned costs and funds put to better use

     Section 5(a)(7) Summary of each particularly significant report                 3‐6

                        Statistical tables showing number of reports and dollar
     Section 5(a)(8)                                                                 15
                        value of questioned costs

                        Statistical tables showing number of reports and dollar
     Section 5(a)(9)                                                                 16
                        value of recommendations that funds be put to better use

                        Summary of each audit issued before this reporting
     Section 5(a)(10) period for which no management decision was made by           none
                        the end of the reporting period

     Section 5(a)(11) Significant revised management decisions                      none

                        Significant management decisions with which the
     Section 5(a)(12)                                                               none
                        inspector general disagrees




                                                  17
 
    Contacting the Office of Inspector General


     




               Help Promote Integrity, Economy and Efficiency

           Report Suspected Fraud, Waste, Abuse or Mismanagement

                     Complaint May be made anonymously



                      Office of Inspector General

                  600 Pennsylvania Avenue, NW NJ‐1110

                         Washington, D.C. 20580



                   Hotline Telephone Number: (202) 326‐2800

                            Fax Number: (202) 326‐2034

                          Hotline Email: oig@ftc.gov



            Any information you provide will be held in confidence.

        However, providing your name and means of communicating

            with you may enhance your ability to investigate.




                        SEMIANNUAL REPORT TO CONGRESS ‐ 18
 




    1
